<html>
<title> - OVERSIGHT OF THE BUREAU OF PRISONS AND COST-EFFECTIVE STRATEGIES FOR REDUCING RECIDIVISM</title>
<body><pre>[Senate Hearing 113-873]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 113-873

                   OVERSIGHT OF THE BUREAU OF PRISONS
                     AND COST-EFFECTIVE STRATEGIES
                        FOR REDUCING RECIDIVISM

=======================================================================

                                 HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 6, 2013

                               __________

                           Serial No. J-113-34

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  
 
 
 
                       U.S. GOVERNMENT PUBLISHING OFFICE                    
26-149 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ff988f90bf9c8a8c8b979a938fd19c9092">[email&#160;protected]</a> 
 

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
           Kristine Lucius, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              

                      November 6, 2013, 10:03 A.M.

                    STATEMENTS OF COMMITTEE Members

                                                                   Page

Blumenthal, Hon. Richard, a U.S. Senator from the State of 
  Connecticut....................................................     6
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     4
Hirono, Hon. Mazie, a U.S. Senator from the State of Hawaii......     7
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     3
    prepared statement...........................................   102
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     5
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................     1
    prepared statement...........................................   104

                               WITNESSES

Witness List.....................................................    39
DeLisi, Matt, Ph.D., Professor and Coordinator, Criminal Justice 
  Studies, Iowa State University, Ames, Iowa.....................    21
    prepared statement...........................................    84
La Vigne, Nancy G., Ph.D., Director, Justice Policy Center, The 
  Urban
  Institute, Washington, DC......................................    28
    prepared statement...........................................    69
Samuels, Charles E., Jr., Director, Federal Bureau of Prisons, 
  Washington, DC.................................................     7
    prepared statement...........................................    40
Sedgwick, Jeffrey, Ph.D., Managing Partner and Co-Founder, 
  Keswick
  Advisors, Richmond, Virginia...................................    30
    prepared statement...........................................    95
Tilley, Hon. John, Chair, House Judiciary Committee, Kentucky 
  House of Representatives, Hopkinsville, Kentucky...............    26
    prepared statement...........................................    53
Wetzel, John E., Secretary, Pennsylvania Department of 
  Corrections,
  Harrisburg, Pennsylvania.......................................    24
    prepared statement...........................................    49

                               QUESTIONS

Questions submitted to Matt DeLisi, Ph.D., by Senator Grassley...   111
Questions submitted to Nancy G. La Vigne, Ph.D., by:
    Senator Blumenthal...........................................   108
    Senator Grassley.............................................   112
    Senator Whitehouse...........................................   123
Questions submitted to Charles E. Samuels, Jr., by:
    Joint questions submitted by Senators Blumenthal and Leahy...   116
    Senator Franken..............................................   109
    Senator Grassley.............................................   113
    Follow-up questions submitted by Senator Leahy...............   119
    Senator Sessions.............................................   122
Questions submitted to Jeffrey Sedgwick, Ph.D., by Senator 
  Grassley.......................................................   114
Questions submitted to Hon. John Tilley by Senator Whitehouse....   124
Questions submitted to John E. Wetzel by:
    Senator Grassley.............................................   115
    Senator Whitehouse...........................................   125

                                ANSWERS

Responses of Matt DeLisi, Ph.D., to questions submitted by 
  Senator Grassley...............................................   126
Responses of Nancy G. La Vigne, Ph.D., to questions submitted by:
    Senator Blumenthal...........................................   132
    Senator Grassley.............................................   134
    Senator Whitehouse...........................................   128
[Note: At the time of printing, after several attempts to obtain 
  responses to the written questions, the Committee had not 
  received any communication from Charles E. Samuels, Jr.]
Responses of Jeffrey Sedgwick, Ph.D., to questions submitted by 
  Senator Grassley...............................................   136
Responses of Hon. John Tilley to questions submitted by Senator 
  Whitehouse.....................................................   142
Responses of John E. Wetzel to questions submitted by:
    Senator Grassley.............................................   141
    Senator Whitehouse...........................................   140

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

American Civil Liberties Union (ACLU), Washington, DC, statement.   158
Arthur Liman Public Interest Program, Yale Law School, New Haven,
  Connecticut, statement.........................................   145
Families Against Mandatory Minimums (FAMM), Washington, DC,
  statement......................................................   178
National Disability Rights Network (NDRN), Washington, DC, 
  statement......................................................   155
Tierney, John, The New York Times, ``For Lesser Crimes, 
  Rethinking Life Behind Bars,'' December 11, 2012, article......   182
Wall, A.T., ``Rhode Island Halts Growth in the Inmate Population 
  While Increasing Public Safety,'' article......................   173

 
                   OVERSIGHT OF THE BUREAU OF PRISONS
                     AND COST-EFFECTIVE STRATEGIES
                        FOR REDUCING RECIDIVISM

                      WEDNESDAY, NOVEMBER 6, 2013

                               United States Senate
                                 Committee on the Judiciary
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Sheldon 
Whitehouse, presiding.
    Present: Senators Whitehouse, Leahy, Durbin, Klobuchar, 
Blumenthal, Hirono, Grassley, Sessions, and Lee.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE,
         A U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. The hearing will come to order. I am 
very grateful that the Chairman of the Judiciary Committee has 
joined us, Chairman Leahy, as well as Senator Durbin of 
Illinois and Senator Blumenthal of Connecticut. I am sure 
others will join us. Senator Grassley will be joining us very 
shortly, but he has important business in the Finance Committee 
right down the hall, so he will be along as soon as he has 
cleared that.
    Welcome, everybody. Today's hearing is ``Oversight of the 
Bureau of Prisons and Cost-Effective Strategies for Reducing 
Recidivism.'' We will be exercising our legislative 
responsibility to conduct oversight of the Bureau of Prisons, 
but perhaps more importantly, we will be exploring with 
Director Charles Samuels and with the second panel of witnesses 
what can be done to improve our Federal corrections system so 
that we better protect the public while reducing costs. This is 
an area that has attracted broad and bipartisan interest within 
our Committee, and I think there is real reason for optimism 
about being able to legislate effectively in this area.
    Continued growth in Federal spending on prisons and 
detention poses a significant threat to all other Federal law 
enforcement activities. During the last fiscal year, the costs 
of detaining Federal inmates ate up more than 30 percent of the 
Justice Department's budget. Since 2000, costs associated with 
Federal prisons and detention have doubled. If nothing is done, 
these costs will continue to consume an ever larger share of 
the Department's budget, squeezing out other activities.
    While spending on Federal prisons has continued to grow, 
the system nevertheless remains dangerously over capacity. The 
inmate-to-staff ratio in our Federal prisons has increased 
significantly over the past decade, and each year we ask the 
men and women who guard our prisons--who walk the toughest beat 
in the State, as we say in Rhode Island--to do more with less. 
If we let these trends continue, we will be putting these brave 
men and women at serious and unnecessary risk.
    Fortunately, States across the country have shown that it 
is possible to rein in corrections costs while improving public 
safety and reducing recidivism.
    My home State of Rhode Island enjoys the leadership of A.T. 
Wall, the Director of our Department of Corrections and the 
dean of corrections directors around the country. With his 
leadership, we enacted a package of reforms that increased 
recidivism reduction programming, focused greater attention on 
high-risk offenders, and expanded investments in successful 
community reentry. As a result of these reforms, our State's 
prison population declined for the first time in years.
    Other States have had similar successes. Today we will hear 
from witnesses from Pennsylvania and Kentucky who helped lead 
their States in enacting and implementing significant reforms 
of their corrections systems that cut costs while better 
protecting the public.
    These examples--and others from around the country--show 
that it is time for the Federal Government to learn from these 
States.
    As a former State and Federal prosecutor, I recognize that 
there are no easy solutions to this problem. Inmates in our 
Federal prisons are there because they have committed serious 
offenses and because the law enforcement officers across their 
country did their jobs in seeing that they were arrested and 
prosecuted. And we must never try to save money at the expense 
of public safety.
    But what the States have shown us is that it is possible to 
cut prison costs while making the public safer--if we are 
willing to be guided by what works.
    To achieve this goal, we must be willing to look at all 
aspects of our sentencing and corrections system:
    We should be willing to reevaluate mandatory minimum 
sentences, an area in which Chairman Leahy and Senator Paul and 
Senator Durbin and Senator Lee have begun important work 
together.
    We should be willing to explore whether the Federal 
Sentencing Guidelines are still working effectively nearly 30 
years after they were first enacted.
    We should ask whether we are doing enough to provide drug 
and alcohol treatment for those inmates who need it and whether 
we are collecting accurate information about substance abuse 
and addiction from the pre-sentence report right through the 
criminal justice process.
    We should ask whether there is more to be done to prepare 
inmates for reentering their communities and more to help the 
communities with their reentry. In Rhode Island, under the 
leadership of Director Wall, we passed reforms that allowed 
inmates to earn credit toward their sentences if they were 
willing to participate in programs that meaningfully reduced 
their criminal risk factors.
    And finally, we should ask if we can do a better job of 
supervising ex-offenders after they are released. Many States, 
led by Senator Hirono's home State of Hawaii's example, the 
HOPE program, have implemented parole systems that impose 
``swift and certain'' sanctions for violations of the terms of 
supervision, with very promising results so far. So from the 
pre-sentence report through post-release supervision, there is 
room for improvement.
    Let me conclude with one point that I think is not 
debatable, and that is that doing nothing about this problem is 
no longer an option. If we do nothing, we are choosing to let 
the corrections budget take away from the FBI's ability to 
disrupt terrorist groups. If we do nothing, we are allowing the 
cost of corrections to prevent us from stopping the next 
generation of cyber threats. We would be choosing to spend less 
enforcing the Violence Against Women Act. We would be choosing 
to give less to our partners in State and local law enforcement 
agencies.
    Those are not choices my colleagues wish to make. Those are 
not smart choices. So I look forward to hearing from Director 
Samuels and today's other witnesses and to working with the 
Members of this Committee to address this critical issue.
    I now recognize our Chairman, Patrick Leahy. Thank you, 
sir.

          OPENING STATEMENT OF HON. PATRICK J. LEAHY,
            A U.S. SENATOR FROM THE STATE OF VERMONT

    Chairman Leahy. Thank you, and thank you, Chairman 
Whitehouse. I will be brief. I will put my full statement in 
the record because I agree so much with what Senator Whitehouse 
has just said.
    This is the second hearing this fall in which we have 
turned our attention to the unsustainable growth in the Federal 
prison population, with a 700-percent increase, I believe, in 
the last 30 years. And that means the Bureau of Prisons' budget 
takes more and more of the resources from the Department of 
Justice. We are losing prosecutors. We are losing agents 
necessary to investigate and charge crimes. We are cutting 
support for critical work with our local and State law 
enforcement.
    I think the main drivers of this prison growth are front-
end sentencing laws that were enacted by us in Congress, like 
the proliferation of mandatory minimum sentences. I am hoping 
that many, including the people who voted for those, are 
looking at it now in retrospect and realize it was a bad 
mistake. And I am committed to addressing sentencing reform 
this year, and I am pleased by the fact that both Republicans 
and Democrats are joining in that effort. It is a problem that 
Congress created, but it is also a problem that Congress can 
fix, and it is high time we do so. And I think public safety 
demands that we do so.
    We can also do such things as change the calculation on 
good time credit to the 54 days a year which Congress intended 
instead of the 47 days that BOP actually credits. That is a 
change that I included in the Second Chance Reauthorization 
Act, and I believe, Senator Whitehouse, you are going to be 
doing that in some of your legislation.
    I want to find out what is being done on programs to reduce 
recidivism. I know it is an interest shared by Members of this 
Committee--Senators Whitehouse, Senator Cornyn, and others. 
More than 90 percent of Federal inmates are going to be 
released at some time back to our communities. What chance do 
they have to make it in the community when they are released?
    Last, and one of the main reasons I also wanted to be here, 
is, Director Samuels, just to say publicly to you, I want to 
thank you for the prompt attention to concerns that I have 
raised and Senator Blumenthal and others have raised regarding 
the proposed closing of the only secure facility for female 
inmates in the Northeast. I understand you have taken those 
concerns to heart, and I want to thank you for that. I know 
that people in my State of Vermont thank you, and Senator 
Blumenthal, who has raised this question, certainly will.
    So I will put my full statement in the record. As I told 
Senator Whitehouse, I am supposed to be at another hearing, but 
thank you for doing this. It is a subject we have to talk 
about--and, Director Samuels, thank you for your service.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    Senator Whitehouse. Thank you very much, Chairman Leahy.
    I now turn to our distinguished Ranking Member, Senator 
Grassley.

           OPENING STATEMENT OF HON. CHUCK GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. I always welcome the opportunity to have 
oversight of the Justice Department. It is a very important 
function of this Committee, and the Bureau of Prisons, of 
course, is a large component of the Department's budget. And, 
of course, the Bureau's work is very, very important.
    We all know with the budget deficits we have that the 
Federal Government spends too much money, so it is nice to have 
this administration find some places to save money. But the 
Bureau of Prisons is one of the few places where they are 
trying to do that.
    We should be very careful about any action we take in 
changing sentencing laws, whether based on cost or other 
concerns. It is hard to think of another example of a more 
successful domestic policy accomplishment over the past 30 
years than the reduction of crime rates that we have had. This 
policy was achieved through multiple policy changes: policing 
techniques, prison construction, longer sentences, and many 
others that I will not name.
    Crime rates are now at their lowest level in 50 years. Many 
people have earned the right to be proud of these results. At 
the same time, we must remember that these were hard-won gains, 
and I am concerned that we are hearing many of the same kind of 
voices that headed us toward greater crime starting back in the 
1960s.
    For instance, we hear that prisoners should have their 
sentences retroactively reduced. We heard that mandatory 
minimum sentences should be eliminated, that we should no 
longer have truth in sentencing, that fewer drug prosecutions 
should be pursued, that all of these proposals would save money 
and not raise crime. Obviously I am skeptical. Reducing prison 
sentences will bring prisoners out in the streets sooner. The 
deterrent effect of imprisonment would be reduced. Many so-
called nonviolent drug offenders happen to have violent 
records. Some of these released offenders will commit 
additional crimes. Somehow cost analyses of the Bureau of 
Prisons do not include costs to victims, including injuries, 
economic losses, psychological and emotional harms.
    One organization represented here today notes that most 
prison costs are fixed, and the real costs of adding or 
subtracting an inmate is closer to $10,000 than the $25,000 
figure that is often used. That changes the calculus as well. 
The cries for increased judicial discretion are actually_cover 
language for leniency, and too many judges are already too 
lenient. They can do serious damage.
    I note here the Second Circuit's unanimous ruling last week 
that a district judge had violated judicial ethics in her zeal 
to issue rulings against successful crime reduction practices 
that led to increased imprisonment. Rather than contemplate her 
rebuke for multiple actions and changing course away from the 
apparent bias, I regret that this district judge quickly issued 
a press release statement contending that she had done nothing 
wrong.
    Of course, we welcome State officials who will testify 
today. We can always consider what States are doing, but State 
and Federal offenders often have committed different kinds of 
crimes. What works in one context may not work in the other. We 
also need to proceed with caution because as States are letting 
more prisoners out earlier, crime rates are rising.
    It is too early to fully establish the causes of this 
increase in crime, but the Bureau of Justice Statistics just 
announced that property and violent crime rates rose 
significantly in 2012. The violent crime rate rose from 22.6 
victimizations per 1,000 in 2011 to 26.1 in 2012. The rate of 
property crimes rose 10 percent in 1 year.
    Funds are not unlimited. I would be willing to examine some 
balanced mix of sentencing reforms. It is well worth 
considering releasing very sick prisoners or prisoners of such 
advanced age or other situations as to be assessed as a very 
low risk to commit new crimes. But leniency for the sake of 
leniency is ill advised. It is an especially bad idea as crime 
rates are rising, as we see in the last couple years.
    I look forward to today's hearing. Thank you.
    Senator Whitehouse. Thank you, Senator Grassley.
    Senator Durbin, would you like to make an opening 
statement? Senator Sessions.

            OPENING STATEMENT OF HON. JEFF SESSIONS,
            A U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Mr. Chairman, thank you, and this is an 
important subject. Mr. Samuels and I have talked before. I 
believe in terms of cost we spend too much per prisoner in the 
Federal system. It is more than 2 times what the average States 
are probably spending on their prisons, number one.
    Number two, we have had an increase in violent crime rates, 
and my sense is with the budget difficulties the last 3 or 4 
years, States where maybe 90 percent of the prisoners are 
confronted by the criminal justice system are softening their 
punishments, and the Federal Government sort of sets the 
standard and leads sometimes in those issues.
    Senator Durbin and I did work together on legislation to 
ease some of the sentences for crack and other penalties, 
really, so I think we took a step in the right direction. But 
Senator Grassley is correct. We have seen a substantial 
increase in crime, 15 percent violent crime last year, and the 
fact is that long-term sustained reduction in crime in America 
from the consistent violent times of the 1970s when I was a 
young prosecutor to half that today. The murder rate is half 
what it was. A lot of that is driven by the fact that there are 
not that many people who commit murders. Not that many people 
commit rapes. And the more of those who are in jail, the fewer 
murders and rapes you are going to have. That is just fact. And 
people do not need to go back to the time when we do not think 
realistically about the value of prison in terms of reducing 
crime.
    And with regard to recidivism, Mr. Chairman, I think some 
programs work better than others, but anybody that knows 
anything about the criminal justice system over a long period 
of time knows there is no cure, no plan yet ever devised, but 
someone always has something they say will change the course of 
criminal history, but it has not happened yet, and we have 
tried thousands of different programs.
    So we have got to be modest achievement in reducing 
recidivism; 10, 15 percent is worthy of us giving great 
consideration to. But these ideas and promotions that we are 
going to have 50 percent or 60 percent reduction in crime, you 
are going to have to prove it to me, because I have been 
watching this for over 30 years, and it is not happening in any 
program I have seen. If it would, I am for it.
    Thank you, Mr. Chairman.
    Senator Whitehouse. I appreciate it, Senator Sessions.
    Senator Klobuchar, do you care to make an opening 
statement?
    Senator Klobuchar. No. I am actually looking very forward 
to hearing our witness, so thank you.
    Senator Whitehouse. Senator Lee. Senator Blumenthal.

         OPENING STATEMENT OF HON. RICHARD BLUMENTHAL,
          A U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Blumenthal. Just to thank you, Mr. Chairman, for 
having this hearing, and to respond briefly to the remarks made 
by the Senator from Alabama. Between the two of us, I think 
perhaps we have close to 70 years in the justice system, and I 
want to agree with him that in an ideal world we would, first 
of all, have no crime; but, second, treat criminals without 
regard to the dollar cost. But there are very severe dollar 
costs to incarceration. In fact, the cost of incarcerating an 
individual is now in excess of what it costs to send a young 
person to college in many universities across the country, and 
I would just point out that many States are taking very 
innovative and important steps toward reducing their prison 
populations in part because of wiser incarceration policies. 
And I hope we can explore some of those policies with the 
Bureau of Prisons here so that we keep dangerous people in 
prison, the ones who are likely to recommit serious and harmful 
crimes, physically dangerous people, and at the same time work 
to rehabilitate them. And I am going to be focused on the 
recent decision of the Federal correctional institution at 
Danbury, which unfortunately a number of us had to stop, which 
would have resulted in transfers of women prisoners away from 
their families, which in my view is bad prison policy. No 
matter how long people are kept in prison, they should be 
nearer to their children, especially if they are mothers of 
those children, and nearer to their families. And I am glad 
that we were able to prevail with the help of the Attorney 
General in changing that decision. I want to thank the Director 
of the Bureau of Prisons for his wisdom in doing so, and I look 
forward to asking him questions about other prisons and other 
prisoners and what can be done to keep them nearer to their 
persons, whether they are women or men.
    Thank you, Mr. Chairman.
    Senator Whitehouse. Thank you.
    Senator Hirono, do you care to make an opening statement?

            OPENING STATEMENT OF HON. MAZIE HIRONO,
            A U.S. SENATOR FROM THE STATE OF HAWAII

    Senator Hirono. Very briefly, Mr. Chairman. Prison 
overcrowding is a huge issue at both the Federal and State 
level, so thank you for this hearing. And I will be very 
interested in hearing from our witnesses what we can do 
regarding the front end that has to do with sentencing and at 
the back end, because the recidivism is another major issue, so 
front-end and back-end issues relating to prison overcrowding.
    Thank you.
    Senator Whitehouse. Thank you.
    Mr. Samuels, would you stand to be sworn? Do you affirm 
that the testimony you are about to give before this Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Mr. Samuels. I do.
    Senator Whitehouse. Thank you and welcome.
    Charles E. Samuels, Jr., is our Director of the Federal 
Bureau of Prisons, a position he has held since December 2011. 
As Director, he is responsible for the oversight and management 
of all Federal Bureau of Prisons institutions and for the 
safety and security of thousands of inmates under the agency's 
jurisdiction. Prior to his appointment, he served as the 
Assistant Director of the Correctional Programs Division, where 
he oversaw all inmate management and program functions, 
including intelligence and counterterrorism initiatives, case 
management, community corrections, mental health, and religious 
services. Director Samuels began his career at the Bureau of 
Prisons as a corrections officer in 1988. We are pleased to 
have him.
    Please proceed, Director Samuels.

        STATEMENT OF CHARLES E. SAMUELS, JR., DIRECTOR,
           FEDERAL BUREAU OF PRISONS, WASHINGTON, DC

    Mr. Samuels. Good morning, Chairman Whitehouse, Ranking 
Member Grassley, and Members of the Committee. I am pleased to 
appear before you today to discuss the Federal Bureau of 
Prisons.
    I cannot begin without acknowledging that this past 
February, the Bureau suffered tragic losses with the murders of 
two of our staff. Officer Eric Williams, from the United States 
Penitentiary in Canaan, Pennsylvania, was stabbed to death by 
an inmate while working in a housing unit. Lieutenant Osvaldo 
Albarati was shot and killed while driving home from the 
Metropolitan Detention Center in Guaynabo, Puerto Rico. We will 
always honor the memories of these two law enforcement 
officers, and their loss underscores the dangers the Bureau 
staff face on a daily basis.
    I know we all share a commitment to our Nation's criminal 
justice system. We are proud of the role we play in supporting 
the Department of Justice public safety efforts. But we 
understand that incarceration is only one aspect of the overall 
mission. I am sure you share my concerns about the increasing 
costs associated with operating the Nation's largest 
correctional system. Those costs make up one-quarter of the DOJ 
budget. We are optimistic the Attorney General's ``Smart on 
Crime'' initiative will reduce the Federal population in the 
years ahead.
    I know that several of you have bills that have the 
potential to possibly impact the Bureau's population and 
crowding through sentencing reform and sentence credit 
incentives. I appreciate your work and your interest in this 
important topic, and I look forward to working with you going 
forward.
    The Bureau of Prisons is responsible for the incarceration 
of over 219,000 inmates. Our prisons are crowded, averaging 36 
percent more inmates than they were designed to house. We are 
most concerned about the 52 percent crowding at higher security 
facilities and 45 percent crowding at medium security 
facilities. I am grateful for the support Congress recently 
provided to activate new facilities in Berlin, New Hampshire; 
Hazelton, West Virginia; Yazoo City, Mississippi; and 
Aliceville, Alabama. When fully activated, these facilities 
will assist with reducing overall crowding rates by about 4 
percent.
    I know you have expressed a great deal of interest in the 
mission change at FCI Danbury. This change will decrease 
crowding from 48 percent to 23 percent in low-security female 
facilities and from 38 percent to 36 percent in low-security 
male facilities, while also bringing many women and men closer 
to their homes.
    Reentry is a critical part of public safety. Our approach 
in the Bureau of Prisons is that reentry begins on the first 
day of incarceration. Preparation for release includes 
treatment, education, job skills training, and more that takes 
place throughout an inmate's term.
    Over the past 20 years, there has been a significant 
evolution and expansion of our inmate reentry program. Several 
of our most significant programs are proven to reduce 
recidivism. Federal Prison Industries, or FPI, is one of our 
most important programs. FPI participants are 24 percent less 
likely to recidivate than non-participating inmates. We were 
recently given new authorities to seek repatriated work and to 
pursue potential projects under the Prison Industries 
Enhancement Certification Program for FPI, and we are working 
diligently to maximize these opportunities.
    We currently have more than 450 inmates working on 
repatriation projects. We agree with many experts that inmates 
must be triaged to assess risk and to determine appropriate 
programming to reduce such risk.
    High-risk offenders are our first priority for treatment as 
they pose the greatest public safety risk when released from 
our custody. The safety of staff, inmates, and the public are 
our highest priorities. I have made several recent changes to 
Bureau operations that will help us enhance safety and 
security. Let me highlight some recent advantages.
    We expanded the availability of pepper spray for our staff 
to use in emergency situations at all high-security prisons, 
detention centers, and jails. We have developed plans to add an 
additional correctional officer to each high-security housing 
unit during evening and weekend shifts using our existing 
resources. We have made significant advances in reviewing and 
reducing our use of restrictive housing, and we are expanding 
residential drug abuse programming.
    The mission of the Bureau of Prisons is challenging, but 
maintaining high levels of security and ensuring inmates are 
actively participating in evidence-based reentry programs, we 
serve and protect society.
    Chairman Whitehouse, this concludes my formal statement. I 
thank the Members of the Committee for your continued support, 
and I would be happy to answer any questions.
    [The prepared statement of Mr. Samuels appears as a 
submission for the record.]
    Senator Whitehouse. Thank you, Director Samuels. You said 
in your testimony that reentry should begin the first day, 
reentry planning should begin the first day. What further 
steps, in addition to what you are already undertaking, do you 
think would be most helpful for this Committee to consider?
    Mr. Samuels. Mr. Chairman, I think the next steps for the 
Committee to consider, as I have stated in written testimony 
and in my oral statement, we are doing everything possible when 
inmates enter our system to begin the reentry process, and it 
is not just something that should start from the initial onset 
and stop. It needs to continue throughout their entire term of 
incarceration.
    Since 1980, our population has exploded. In 1980, we had 
approximately 26,400 inmates in our care, 10,000 staff to 
manage that population, and only 41 institutions at that time. 
As of to date, as I have indicated, our population is at 
219,000. We have approximately 38,000 staff. That is an 
increase of 830 percent just with the inmate population alone.
    Safety and security is very, very important to manage a 
correctional facility. We are utilizing staff who have been 
hired to provide programming, in some cases, to provide 
security, because security is paramount to ensure that you have 
an environment where you can provide the appropriate 
programming. And we are on a path of unsustainability, and it 
is a significant issue that I think everyone needs to be 
concerned about, because the men and women who work for the 
Bureau of Prisons, who are dedicated law enforcement officers, 
are putting their lives on the line every single day.
    We believe that reentry is very, very important because it 
is a significant part of our mission. Our mission is not just 
to warehouse individuals, but to ensure that we are providing 
them everything necessary when ultimately they are released. 
Ninety-five percent of the inmates in our care will at some 
point in time be released back to communities.
    Reentry is also important because for us to manage these 
individuals, we have to ensure that we are actively ensuring 
that they are engaged in programs within the institution, and 
this is accomplished by our reentry efforts.
    I can report that, despite all the challenges we have faced 
over the last 30 years, we are at a point where 80 percent of 
the inmates who are released from the Bureau of Prisons do not 
recidivate within 3 years. And I give credit to the staff who 
are working under these difficult situations and at the same 
time ensuring that we are maintaining safe, secure facilities 
for the American public.
    So if any consideration could be given, I think it is 
looking at the growth that we have no control over. As you all 
are aware, the Bureau of Prisons, we do not control the number 
of inmates who enter the system. We have no control over their 
sentence limit. But what we do have a duty and an obligation to 
do is to ensure that for those individuals who are ultimately 
released do not return to prison, because on average about 
45,000 inmates are released back into the communities. And with 
the recidivism issues and concerns, I tell our staff day in and 
day out that it is up to us to do what we can control and it is 
making sure we provide effective programs so they do not 
return.
    Senator Whitehouse. Is one of them the Residential Drug 
Abuse Program? The Residential Drug Abuse Program, do you--tell 
me a little bit about that and how effective you believe that 
is and how it fits into the improvement of non-recidivism upon 
reentry?
    Mr. Samuels. Yes. The Residential Drug Abuse Program is 
modeled after our cognitive behavioral therapy model that 
research has shown, with experts looking at this, that it does 
reduce recidivism as well as relapse. And so within the Bureau 
we have been very, very successful with RDAP.
    We have taken it a step further. We have used the cognitive 
behavioral therapy model to place programs throughout the 
Bureau for other segments of our population. I will give you an 
example. We have a challenge program that also uses CBT for 
high-security inmates. We have a BRAVE program that we use for 
young male inmates. We have a Resolve program that is very 
beneficial for female offenders who have experienced traumatic 
incidents within their life. We have the sex offender treatment 
program, which is also very successful. And for chronically 
mentally ill inmates, we have a Step-Down program, we have a 
Stages program that we utilize for individuals who are 
suffering from paranoid issues, and overall we believe that 
this is very important. We have to continue to do it. But the 
challenge is with the resources and focusing on high-risk need 
offenders, and we have to ensure that that is where we are 
putting the focus for the efforts that we have put in place.
    Senator Whitehouse. Thank you, Director.
    Senator Grassley.
    Senator Grassley. Thank you, Mr. Samuels, for being here, 
and thank you, Mr. Chairman. We have testimony before us that 
25 percent of the Federal prisoners are foreign citizens. 
Anyone who is concerned about reducing prison costs should make 
lowering that number a priority. What can your agency do, the 
Bureau do more effectively to use the International Prisoner 
Transfer Program to make more of the foreign citizens serve 
their sentences in their home countries rather than at U.S. 
taxpayer expense?
    Mr. Samuels. Thank you, Senator Grassley, for this 
question. As you stated, 25 percent of our population comprises 
non-U.S. citizens. That number equates to 55,000 criminal 
aliens in our population. And we have a Treaty Transfer Program 
that we are actively using, and there is room to ensure that we 
are increasing the numbers as far as the participants for the 
program. We are reaching out throughout the Bureau to ensure 
that our staff are explaining this program in its entirety to 
the inmates who would benefit from being removed from within 
the Bureau of Prisons and given an opportunity to serve their 
time through the agreements that we have with the international 
community where the agreements are in place. And that would, in 
effect, as you have stated, give us some cost reductions within 
our population.
    Senator Grassley. One way to reduce prison crowding is to 
build more prisons. Congress has authorized building four 
additional Federal prisons. At the same time the Federal 
Government bought a State prison in Thompson, Illinois, and is 
spending additional money to renovate it. I would like to know 
the current status of Thompson Prison and what is the amount of 
the money being spent on it. And then, last, so it is really a 
three-part question: Is the spending on Thompson slowing down 
the opening of the four additional prisons that have been 
authorized and their status?
    Mr. Samuels. Okay. The current four facilities that we have 
that are in the activation process, the purchase of the 
Thompson facility has not in any way impeded our progress in 
moving forward to activate the facilities that you make 
reference to. We have the New Hampshire facility as well as the 
facility at Aliceville, Alabama. We have hired the staff, which 
we are continuing to hire, and we are also gradually moving 
forward to build the population for the institutions.
    The facilities that are still pending for full activation, 
which we have the facility at Hazelton, West Virginia, and the 
penitentiary in Yazoo City, and at this point we are trying to 
hire, and hopefully, depending on funding that will potentially 
hopefully be provided in Fiscal Year 2014, we would be put in a 
situation to determine how soon we can move inmates into the 
facility for activation.
    For the Thompson facility, I can assure you there has 
always been great need within the Bureau of Prisons for this 
type of facility. We have not in the Bureau of Prisons brought 
on any type of high-security ADX beds similar to what we have 
in ADX Colorado since 1994. If you looked at our population in 
1994 compared to where we are today, these beds are premium. We 
have had to do our best with limited resources to prioritize 
the inmates that we place at the ADX. So I am looking forward 
to being able to fully activate the Thompson facility because, 
as I mentioned, at the high-security level, with crowding 
within the Bureau of Prisons, we are facing significant 
challenges that are ultimately putting our staff at risk, 
putting the inmates at risk, and the community at risk. So we 
desperately need those beds.
    Senator Grassley. Can you submit a figure that is being 
spent on Thompson Prison in writing?
    Mr. Samuels. Yes, sir.
    Senator Grassley. Thank you.
    [The information referred to appears as a submission for 
the record.]
    Senator Grassley. My last question. Twenty-five percent of 
the Federal prisoners are gang Members. Prisoners can more 
easily maintain their ties to crime if they are gang Members. 
That can make prisons more dangerous and make it harder for 
inmates to avoid committing new crimes when they are released.
    What specifically does your agency do to reduce gang 
Membership in prisons? And is Membership so high because 
prisoners who did not previously belong to gangs join them 
after they are in prison?
    Mr. Samuels. Thank you. Within the Bureau of Prisons, 
which, as you have acknowledged, we do have a significant 
number of gang Members, many of these individuals long before 
entering the prison system have gang affiliation, and this is 
one of the reasons why the unsustainability for safety and 
security within our facilities with the large numbers that we 
are dealing with, we have had to put innovative strategies in 
place to target these individuals.
    We are able to manage and maintain control by using the 
number of prisons that we have to spread out influence. The 
Bureau of Prisons for well over 30 years has used a risk 
assessment tool, and with this assessment tool, we look at 
criminogenic factors, which being a gang member would fall 
within static, which is a factor where you cannot change it. 
And we have dynamic factors that we also weigh in because gang 
Membership, misconduct, criminal history, these are good 
predictors of institution misconduct as well as recidivism.
    So by targeting and looking at these individuals' history, 
and particularly those who have gang affiliation, we are doing 
everything that we can to get these individuals involved in 
evidence-based programs to ensure that we are trying to at 
least explore with them alternatives with their criminal 
thinking to put them on the right path to move away from any 
belief that they need to belong to a gang, especially within 
the correctional environment, because it is our responsibility 
to protect these individuals, and they should not believe for a 
moment that they should join a gang for any type of safety. And 
that is why command and control within the prison system is 
very important to defuse those types of issues.
    Senator Whitehouse. Senator Durbin.
    Senator Grassley. Mr. Chairman, I have to go down to 
Finance, and I will come back for the second round.
    Senator Whitehouse. Very well.
    Senator Grassley. Thank you.
    Senator Durbin. Thank you, Mr. Chairman. Before he leaves, 
I want to thank Senator Grassley for his shared interest in the 
Thompson Federal Prison. We both realize that this is going to 
create good-paying jobs for people living in his home State of 
Iowa and my home State of Illinois, and, as you said, is going 
to lessen the overcrowding and provide critical beds that are 
necessary for the protection of the men and women of your 
Bureau who work so hard. And I thank Senator Grassley for those 
questions. I thought that he took away some of my thunder here 
on that Thompson Prison.
    Director Samuels, it has been a little over a year, maybe a 
year and a few months, since we had a hearing that you attended 
in this room relative to solitary confinement segregation and 
the impact it has on people serving time in prison. We had many 
witnesses before us, including a man who had spent more than 10 
years on death row in isolation in Texas. He came to testify 
before us. I will never forget his testimony as long as I live. 
It was heart-breaking, and it reflected the fact that many of 
the people in segregation in an isolation situation 23 hours a 
day in a cell, 1 hour by themselves outside, ultimately many of 
them will come out of that prison, and the question is: What is 
left of them after they have gone through that life experience?
    We had testimony at that hearing from the Director of 
Corrections from the State of Mississippi, and he talked about 
an assessment Mississippi had done after suicides in these 
circumstances in which they concluded they were wasting money 
with more and more isolation and segregation. And Mississippi, 
the Director of Corrections there, really was a leader in 
saying we are going to change this. We can save money, we can 
keep everyone safe in a prison, and we can avoid these terrible 
outcomes, the mental degradation of people who are faced with 
isolation and segregation.
    I asked you at the time whether you believe that putting 
people in segregation or separate facilities had any ultimate 
impact on their mental health, and you demurred, as we say in 
law school, from answering. I would have said yes, clearly yes, 
but you demurred. But to your credit, you said, ``I will look 
at this situation for the Federal Bureau of Prisons.''
    So now I would like to ask you two things. What have you 
done in over a year? And, number two, what can we look forward 
to? Is there a way for us to save money, not degrade the mental 
condition of those who are put in isolation, and still protect 
the men and women who serve in the Bureau of Prisons?
    Mr. Samuels. Thank you, Senator Durbin, and I do want to 
commend you on taking the lead on this very, very important 
issue. When I attended the hearing in June 2012, it was a very 
significant issue for the Bureau, and I would also say for this 
Nation, because I have had many conversations with my peers in 
the field of corrections, directors and secretaries, relative 
to this issue.
    Since the hearing at the time, there were well over 13,500 
individuals in some form of restrictive housing within the 
Bureau of Prisons, and I can report today that the number is 
now approximately 9,300-plus. So we have had a significant 
reduction in that area. And what we have done throughout this 
agency is put a focus on the issues relative to restrictive 
housing. I have had many conversations with the senior leaders 
within this agency, specifically the wardens who are 
responsible for the day-to-day operations of our prisons, and 
stressed the fact that we have to be just as aggressive getting 
individuals out when we put them in restrictive housing, and 
realizing that we only use it when absolutely necessary, which 
for the men and women, to include the inmates in our 
institutions, we always must keep the focus on safety and 
security.
    We have some very dangerous inmates in our system, as I 
know you are aware, and we have to ensure that we are 
protecting everyone in the correctional environment. But at the 
same time, we have a duty and an obligation, as you have 
mentioned, to ensure that when we are placing individuals in 
restrictive housing, that we are maintaining the highest level 
of quality care relative to their physical as well as mental 
health.
    Senator Durbin. I am sorry to interrupt you, but I only 
have a few seconds left, and I would like to ask a question, a 
pointed question on a different topic. We spend somewhere 
between $1.5 million a year to $2 million for each and every 
inmate being held at Guantanamo, $1.5 million plus a year. What 
is the maximum amount per inmate cost at, say, Florence, 
Colorado, our highest-security Federal prison?
    Mr. Samuels. Per inmate?
    Senator Durbin. Per inmate, annual cost.
    Mr. Samuels. For the complex, it would be equal to 
approximately $75 per day, and it varies from facility, but if 
we look at it specifically for the----
    Senator Durbin. And that is the highest-level maximum 
security prison in the Bureau of Prisons system?
    Mr. Samuels. Yes, sir.
    Senator Durbin. Has anyone ever escaped from there?
    Mr. Samuels. No, sir.
    Senator Durbin. Thank you very much, Director.
    Senator Whitehouse. Senator Sessions.
    Senator Sessions. What is the average cost per inmate in 
the Federal penitentiary?
    Mr. Samuels. The average annual cost, $29,000 a year.
    Senator Sessions. Alabama would be less than half of that, 
which is a low-cost State, but a lot of other States are much 
less. And I think we invest a lot of money because the Federal 
Government wants to have the highest and best prison system and 
benefit the prisoners the most we can. But I do think we have 
to look at that cost figure. Other States are just not costing 
that much.
    With regard to the 25 percent that are foreign born that 
are in prison, those do not include the people being detained 
in immigration institutions for deportation. These are 
individuals who have been tried by a Federal judge for some 
sort of crime like drugs or assaults of that kind. Is that 
correct?
    Mr. Samuels. Yes, sir. We have more than 100,000 
individuals in our custody who have been sentenced for drugs, 
which 77,000 are U.S. citizens and 23,000 criminal aliens.
    Senator Sessions. I noticed in your numbers I have here 
that the prison population went up about 2,000 between 2012 and 
2013. At least that was the projected increase. That would be 
about a 1-percent increase, which is below the population 
increase. So at this point, we are not seeing a surge of 
prisoners above the normal population increase in the country, 
are we?
    Mr. Samuels. Senator Sessions, I am glad that you raised 
this point. For Fiscal Year 2013, we had a net gain of 611 
inmates, and although the number appears to be small compared 
to recent years where we have been averaging 6,000-plus 
inmates, you have to realize that at the same time we processed 
within the Bureau of Prisons well over 70,000 inmates, which 
these are individuals who have to go through screening for 
physical and mental health and everything else that it takes to 
manage that large-scale number of inmates going into our 
system. And when you look at the overall trend, even for a 10-
year period, we have had a 40-percent increase. So the 611 
continues to demonstrate that we are having more and more 
inmates, and we are not planning at this point to build any new 
prisons. So 600----
    Senator Sessions. When you say more and more, it is a net 
600 increase, though, right?
    Mr. Samuels. The net is 611, and even with that number, you 
are still looking at a third of a prison. So we have to take 
those 611, and we are put in a situation right now throughout 
this country where we are triple-bunking.
    Senator Sessions. I just would say to my colleagues I think 
there is a decline in Federal and State incarceration rates 
from the time 1981 when I was made United States Attorney. In 
the early 1980s, this Congress, Senator Kennedy and Senators 
Thurmond, Leahy, Biden, Grassley, Hatch did the mandatory 
sentencing, eliminated parole, had the mandatory sentencing 
provisions, and it was a revolution in prison and in 
prosecution. I saw it before and after. States began to follow 
mandatory sentences. We have seen a decline in murder rates by 
one-half. People in the 1970s were constantly fearful of their 
homes being burglarized, being assaulted, their cars broken 
into, all kinds. And you just have seen this rather substantial 
improvement.
    So all I would say to our colleagues is there is no doubt 
in my mind that moving from a revolving door where people would 
come in and they would be given probation and then they would 
be released on bail for the second, third, and fourth offense 
and tried another year later, and given probation again, too 
often this was driving the crime rate.
    So we achieved a lot, and that is why I was willing to 
support and work with Senator Durbin to maybe reduce some of 
the mandatory sentences, because I think we can be smarter 
about it. I do not have any doubt we can be smarter about it. 
But it would be naive and a big error if we were to think we 
can just walk away from incarcerating dangerous people. You are 
worried for your guards. You are talking about gangs and your 
guards. A lot of the people are just dangerous, and we have 
just got to be real careful about that.
    And I think we need to watch the cost. The Federal prison 
system cannot be the greatest system, most expensive in the 
whole world--which it is. We just cannot--we have got to look 
for ways to reduce cost, and we have got to be cautious about 
adopting the belief that there has been some new recidivism 
program that is going to solve the recidivism rate. If we can 
reduce it even a little bit, I am willing to support a good 
program. But a lot of the programs just have never produced the 
results we would want them to have. The recidivism rate today 
is not a lot different than it was in 1980, I do not think. And 
so we are spending a lot more on it, trying to make it better, 
and we had a very successful achievement there.
    Finally, you and I have talked at Prison Industries. There 
is no doubt in my mind that people who work in prison prefer 
it. Prisoners who have work programs are safer, are they not, 
Mr. Samuels?
    Mr. Samuels. Yes, sir.
    Senator Sessions. I think the data shows that clearly. And 
they probably have a little better recidivist rate. I do not 
know.
    Mr. Samuels. They do.
    Senator Sessions. But we have got to have a breakthrough. 
More people in prison need to be working. The American people 
understand this. There have been a lot of attempts, some of 
them not very smart, to help prisoners work. But I really 
believe all of us need to look for a way to have more 
productive work in prisons.
    Thank you, Mr. Chairman.
    Senator Whitehouse. Thank you, Senator Sessions.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman. 
Thanks for holding this hearing. I appreciated Senator 
Sessions' comments about the smart sentencing, and as a former 
prosecutor, I know how we need to keep dangerous offenders 
behind bars. My State has one of the lowest incarceration rates 
in the country, but we also have one of the lowest crime rates. 
And part of that is triaging these cases and making sure there 
is some response to low-level offenses, escalating responses. 
But the length of it can be the matter of dispute, and I think 
that is part of what we are talking about here.
    I came through this, looking at our State, which sometimes 
people joke we are not just the Land of 10,000 Lakes. We are 
the Land of 10,000 Treatment Centers. But our focus on going 
after addiction and some of these things I think has made a 
difference in the handling of these cases, and in particular 
drug courts. Drug cases made up about a third of our caseload 
in the Hennepin County Attorney's Office, which had a 
population in Hennepin County of over 1 million people, 
Minneapolis, 45 suburbs, 400 employees. And we really focused a 
lot on drug courts.
    Now, I made some changes when I got in there. I think 
Senator Sessions would have liked some of them. I took some of 
the cases out that had guns with them, some of the more violent 
cases, because I did not think they belonged there. And I think 
it actually strengthened the drug court and the use of the drug 
courts.
    You know the stats, Director. Three out of every four 
people who graduate from these programs are not arrested again. 
Seventy-five percent success rate compared to 30 percent in the 
traditional system. Saving taxpayers dollars, an average of 
$6,000 per person. And I asked Attorney General Holder at our 
last DOJ oversight hearing about expanding the use of drug 
courts at the Federal level, and so that is what I wanted to 
start with, with you, how you see this could work and how we 
could more effectively lower costs, better rehabilitate 
offenders, and then also reduce our crime rates like we have 
seen in our State.
    Mr. Samuels. Thank you, Senator. I do agree with the drug 
treatment programs. They do work. We see a lot of benefit just 
from the behavior that we are quick to witness with the inmates 
who participate in the programs. Internally within the Bureau, 
we have the Residential Drug Abuse Program as well as the non-
residential, and we also offer drug education in all of our 
institutions.
    As far as a policy issue relative to drug courts, I am not 
the expert for those types of discussions, and I definitely 
know that within the Department there are many individuals who 
are more appropriate to have those discussions on policy issues 
for the Department that could eventually benefit any 
reductions, you know, with our population on the front end as 
well as the back end.
    Senator Klobuchar. But you do see it as a way, with now the 
advent of some Federal drugs courts, of reducing some of the 
numbers in the prison?
    Mr. Samuels. I believe the evidence shows that that is very 
possible.
    Senator Klobuchar. Now, you mentioned the Residential Drug 
Abuse Program and how that has proven effective in reducing 
recidivism and decreasing institutional misconduct. How many 
inmates are enrolled in the program? What kind of return on 
investment do we get?
    Mr. Samuels. For inmates who participate in the Residential 
Drug Abuse Program, for every dollar we invest, there is a 
$2.60 savings. And the total number of individuals we have 
participating in residential drug abuse program treatment right 
now is 16,000 inmates. And we would like to see that number 
increase, which we, again, as I have stated, know that it is 
very productive. So our overall plan is to increase the number 
of programs we have so we can have the maximum number of 
inmates participating.
    Senator Klobuchar. What is your view on awarding inmates 
good time credits for participating in the intensive recidivism 
reduction programs or increasing the number of opportunities 
for inmates to earn these credits through education or 
vocational programs?
    Mr. Samuels. The Department as well as the administration 
have continued to support these legislative proposals. I 
definitely concur and believe that they are important. When you 
look at the additional 7 days of good conduct time that can be 
added to an inmate's credit for time off their sentence--
because right now they are receiving 47 days--it is very 
beneficial to the safety and security of the facility, and it 
is not where an inmate would be rewarded something for not 
having good behavior, and it helps us.
    For the inmates, we believe we can ultimately get a large 
number of inmates to participate in evidence-based programs to 
receive up to 60 days off of their term by participating in 
more than 180 days within a calendar year, the programs that 
you mentioned. We believe it is beneficial, and it definitely 
ultimately helps with public safety, because the majority of 
these inmates are going to be released, and being exposed to 
these cognitive behavioral therapy programs only enhances 
safety.
    Senator Klobuchar. Just one last question. In your 
testimony you acknowledge the tragic deaths of two Federal 
Bureau of Prisons employees, Officer Eric Williams and 
Lieutenant Osvaldo Albarati, and I know all of us extend our 
sympathy to their families. What do you think can be done to 
improve safety for prison staff while on or off duty?
    Mr. Samuels. What we need to do to improve safety of our 
staff, it comes down to a resource issue. We are doing more 
with less, and the staff are very proud to take on the mission 
because this is why they have elected to serve this country by 
working in corrections. But when you are dealing with large 
numbers on any given day throughout this country, we have one 
officer working in our housing units providing oversight for 
150-plus inmates. We have recreation specialists who are doing 
their best to ensure that inmates are actively involved with 
recreational activities, and you can have in excess of 500 
inmates being supervised by one person.
    So we are doing everything that we can to put the resources 
where they need to be, but you can only imagine if there is any 
type of disturbance within the institutions and you only have a 
small number of staff to respond, the staff are putting their 
lives on the line every single day. And this is why the 
programs are very important, and we believe it is, you know, up 
to us to do what we can with the limited resources in the 
capacity that we have to maximize the situation, to put us in 
the best possible situation to effectively manage our prisons.
    Senator Klobuchar. Thank you very much.
    Senator Whitehouse. Senator Lee.
    Senator Lee. Thank you, Mr. Chairman, and thank you, Mr. 
Samuels, for joining us today.
    As I have expressed many times on previous occasions, in my 
view the Federal Government has been for decades enacting and 
subsequently enforcing far too much substantive criminal law. 
As a result of that, our Federal prison system is overcrowded, 
and it is extremely costly.
    As we have heard today, the Bureau of Prisons consumes a 
very significant share of the overall budget of the U.S. 
Department of Justice, using resources that might otherwise be 
used more effectively in other areas to enhance public safety 
in the United States.
    Although long mandatory minimum sentences for drug offenses 
do not tell the whole story of the increasing overcrowded 
Federal prison population, I think they do share a very 
significant part of the problem of overcrowding, and I think we 
have to look very closely at our current scheme of mandatory 
minimum sentences as a result. And I think we have to do that 
to see whether incremental changes can safely and effectively 
be made to these sentences to reduce the Federal prison 
population and to reduce costs while at the same time 
preserving, if not enhancing, public safety in America.
    The legislation that I have cosponsored with Senator 
Durbin, the Smarter Sentencing Act, S. 1410, would decrease 
mandatory minimum sentences for certain categories of drug 
offenders. So my first question for you, Mr. Samuels, is 
whether this type of legislation, should it succeed, as it is 
widely expected to do if it were passed, in helping to decrease 
the Federal prison population over the next few years, over the 
decade or so following its enactment, what would that do for 
you? What would that do for the Bureau of Prisons as far as 
making it easier for you to do your job if we succeeded in 
reducing the overcrowding problem?
    Mr. Samuels. Thank you, Senator Lee, and I would start by 
saying that I agree that reform needs to take place. The 
specifics of the various bills that are being considered is 
something that, again, needs to be considered by the 
appropriate individuals within the Department relative to 
policy issues.
    To your question, what would it do to help the Bureau of 
Prisons, any reduction within our population that ensures that 
there is no threat to public safety obviously helps us 
effectively run our institutions. And we are not dealing with 
the competitive issues within the people when you are trying to 
do as much as you can to stretch resources within the 
environment, because the increase within the population, which 
research shows that when you continue to add more and more 
inmates, the propensity for violence increases, and this puts 
our staff and the inmates, to include the surrounding 
communities where our institutions are located, at risk.
    Senator Lee. Two of your biggest concerns I would have to 
imagine would be, one, prison safety, safety within the prison, 
safety of the prisoners themselves and of your personnel; and 
also the effectiveness of your programs to minimize recidivism. 
I would imagine that reducing the overcrowding problem would 
then have a positive effect on your ability to manage both of 
those concerns.
    Mr. Samuels. Yes, sir.
    Senator Lee. Good. What programs do you have in place 
currently to ensure that those released from prison, including 
those who might be released earlier than they would otherwise 
be as a result of changes like these, what programs do you have 
in place to make sure that they do not present a threat to 
public safety once they are released?
    Mr. Samuels. As I mentioned earlier, we have numerous 
cognitive behavioral therapy programs that we have modeled 
after RDAP because of the research showing that these types of 
programs are very effective. And we are constantly encouraging 
inmates to participate in these programs, and we are very 
successful on many occasions in doing so. But I would share 
with the Subcommittee here to date that we really need to have 
some type of incentive to get more of these inmates involved in 
the programs, and this is why I continue to support, and I 
believe that the sentencing credits that could be provided, 
similar to what we have with RDAP--I mean, many of the 
individuals know that when they participate in RDAP they can 
get up to a year off their sentence. But at the same time, they 
are being exposed to the program and they receive the benefit, 
which ultimately helps them with their transition from prison 
back into the community. And if we can have an incentive to 
entice the other inmates within the population who do not have 
a substance use disorder, then it increases the number of 
inmates who can be exposed, which over a period of time, when 
the majority of these individuals are going to be released, 
this will help public safety.
    Senator Lee. Okay. So----
    Senator Whitehouse. Senator Hirono.
    Senator Lee. Thank you.
    Senator Hirono. Thank you, Mr. Chairman.
    You mentioned that the average cost to incarcerate a person 
in our system is about $29,000 or almost $30,000. Is there a 
difference in average cost in a women's prison facility?
    Mr. Samuels. For the female facilities, it depends on the 
number, the mission, but typically the average is going to be 
the same.
    Senator Hirono. Typically?
    Mr. Samuels. Yes.
    Senator Hirono. Do the women in these facilities have the 
same access to the kinds of programs that are available to men 
in the male facilities?
    Mr. Samuels. Yes.
    Senator Hirono. There is a growing number of women in our 
prison population, so you cited some data in your testimony. 
Does your data reflect differences in recidivism for men and 
women? And, also, do you have evidence-based programs that work 
better for men versus women in terms of success and 
reintegrating into society? I think you talked about one 
program that is specifically for women, Resolve, but----
    Mr. Samuels. The Resolve program.
    Senator Hirono. But can you share with me if you do that 
kind of data collection that distinguishes men and women and 
how they are treated and what is successful?
    Mr. Samuels. For the programs that we operate, I mean, we 
are following typically one model throughout the Bureau. Now, 
we have not collected any specific data to distinguish between 
female inmates versus male inmates to identify whether one 
particular program does not work better based on male or 
female.
    Senator Hirono. Why is that?
    Mr. Samuels. Why is that?
    Senator Hirono. Yes. Why do you not have that kind of data? 
Do you think that there are no differences? Or you just have 
not done it?
    Mr. Samuels. I would say for this discussion that there are 
no differences. But we do not have specific programs 
specifically targeted for the female inmate population, which 
this would be consistent with all of corrections, not just 
within the Federal system. But I would definitely take your 
question back to have discussions internally with the Bureau to 
include with my colleagues if there is something that is being 
done or if you are aware of something specifically for the 
female inmate population relative to the CBT programs that we 
provide.
    Senator Hirono. Well, my understanding is that as a general 
proposition, women are in prison for drug crimes and not 
violent crimes. So that is a very different profile than 
dangerous felons in our prison system. So I would ask that you 
take into consideration those kinds of factors as well as--I 
think that there may be some programs that will better enable 
women to reintegrate when they are released than would work for 
men. And I believe that there are some States who recognize 
those kinds of factors and plan their programs in a way that 
reflects that kind of understanding. I think it is very 
important because, as more and more women, who tend to still be 
the caregivers for their families, are incarcerated, that has a 
lot of ramifications to their families, their children, 
reentry, all of that.
    Mr. Samuels. And, Senator, I have recently put together a 
warden's advisory group specifically for the female inmate 
population to look at what we have done historically and to 
focus on the types of concerns that you are raising to make 
sure that if there are any best practices or things that we 
should consider, that we are moving in a direction to ensure 
that there is a balance on both sides so the female inmates 
within our care are receiving appropriate attention and care 
relative to the issues that you have raised.
    Senator Hirono. Because my impression is generally that 
there have been fewer programs for women in our prison system, 
both in the State level and Federal level, and I understand 
that your responsibility is on the Federal side.
    Thank you very much.
    Senator Whitehouse. Thank you, Senator Hirono.
    Thank you very much, Director Samuels. We appreciate you 
being here today, and we appreciate the support for our joint 
legislative-executive efforts going forward that the Bureau of 
Prisons is going to continue to show. We will obviously 
continue to call on you for information and on your staff for 
expertise, and we look forward to that relationship as we 
proceed.
    You are excused from the Committee. We thank you for your 
testimony, and I will call up the second panel.
    Senator Whitehouse. I welcome our panel.
    Professor DeLisi is from Iowa. The Ranking Member 
represents Iowa, and the Ranking Member has asked that 
Professor DeLisi testify first so that he has a chance to hear 
his constituent's testimony before he has to return to his work 
within the Finance Committee. So, without objection, we will go 
out of the usual order and begin with Professor DeLisi. But let 
me first ask all the witnesses to please stand and be sworn. Do 
you affirm that the testimony you are about to give before the 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you God?
    Professor DeLisi. I do.
    Mr. Wetzel. I do.
    Mr. Tilley. I do.
    Ms. La Vigne. I do.
    Mr. Sedgwick. I do.
    Senator Whitehouse. Thank you, and please be seated.
    Professor DeLisi is a professor and coordinator of criminal 
justice studies with the Center for the Study of Violence at 
Iowa State University. He is the editor-in-chief of the Journal 
of Criminal Justice and the author of nearly 250 scholarly 
articles. He has received the Fellow Award from the Academy of 
Criminal Justice Sciences and is a member of the American 
Association for the Advancement of Science and the Association 
for Psychological Science. And would you like to make any 
further recognition of Professor DeLisi or welcome?
    Senator Grassley. I guess you have said it all, but I do 
say welcome to you. Thank you very much.
    Senator Whitehouse. Very well. Professor DeLisi, please 
proceed, and then we will go to Director Wetzel and down the 
line.

         STATEMENT OF MATT DeLISI, PH.D., PROFESSOR AND
 COORDINATOR, CRIMINAL JUSTICE STUDIES, IOWA STATE UNIVERSITY, 
                           AMES, IOWA

    Professor DeLisi. Thank you very much for this opportunity.
    Although reducing the costs of BOP is important, the policy 
recommendations significantly neglect the antisociality of 
criminal offenders and the likely recidivism that would result 
from a large-scale release of BOP inmates. The majority of this 
testimony attests to the antisociality and behavioral risks 
denoted by the modal Federal prisoner, with quantitative 
estimates of additional crimes that could result from the 
policy recommendations.
    The report promulgates the notion that drug offenders are 
somewhat innocuous and that their antisocial behavior is 
limited to drug sales and drug use. In fact, criminal 
offenders, all criminal offenders, tend to be very versatile in 
their offending behaviors. Thus, a person sentenced for drug 
crimes is also likely to have property crimes, violent crimes, 
public order crimes, nuisance crimes, traffic violations, and 
assorted violations of the criminal justice system. Thus, any 
discussion of drug offenders should also be understood that 
they are next week very likely to be property offenders and 
potentially violent offenders.
    Moreover, recent research using a variety of samples has 
indicated that drug use is one of the prime drivers of overall 
criminal activity. Meta-analytic research indicates that drug 
offenders offend at rates approximately 3 to 4 times that of 
offenders who do not have drug problems. And overall their 
behavioral repertoires extend far beyond drug offending.
    Regarding the safety valves for judicial discretion, 
current law permits judges to waive mandatory minimum 
sentencing for a person sentenced for drug offenses with little 
to no criminal history. Thus, the extant policy is adequate to 
avoid unnecessary confinement of low-risk offenders. The 
suggestion to apply the safety valve to all offenders--
including those with extensive criminal histories--is not 
advised. The entire criminal career paradigm demonstrates 
tremendous continuity in antisocial behavior from childhood to 
adolescence to adulthood.
    As the Director indicated in panel one, 25 percent of BOP 
inmates are gang Members, and gang Membership is one of the 
most robust predictors of offending, misconduct while in 
confinement, and recidivism.
    In this way, prison is an important interruption of their 
criminal careers, but, unfortunately, the preponderance of 
offenders will continue to commit offenses upon release.
    Releasing these types of offenders could likely produce 
more crime. Research has shown that a one-prisoner reduction in 
the prison population is associated with a 15 Part I Index 
crime increase per year. To put this into perspective, 
releasing 1 percent of the current BOP population would result 
in approximately 32,850 additional crimes. An independent study 
by other researchers arrived at the estimate that a one-
prisoner reduction increases crime by 17 offenses per year. 
Thus, to use the same example, releasing 1 percent of the 
current BOP population would result in 37,230 additional 
offenses.
    The Safety Valve 1 recommendation in the Urban Institute 
proposal to release 2,000 offenders based on these prior 
estimate would produce a range of 30,000 to 34,000 new index 
crimes per year.
    In terms of Safety Valve Recommendation 2, the proposal 
recommends the creation to apply, quoting the report, ``beyond 
drug offenders with minimal criminal histories to drug 
offenders with more extensive criminal histories, some weapons 
offenders, armed career criminals, sex abuse offenders, child 
pornography offenders, and identity theft offenders.'' The 
release of these offenders with extensive criminal histories 
could be potentially disastrous to public safety.
    Regarding the expanded Incentivize Programming estimates, 
using, again, the same data, the proposal to potentially 
release 36,000 inmates over the next 10 years would produce an 
estimated 540,000 to 612,000 new Index crimes.
    The Recommendation 2, to release 12,000 offenders in 1 
year, would produce 180,000 to 204,000 new Index crimes.
    And proposal number 3 to transfer 34,000 inmates to home 
confinement could potentially over the next 10 years increase 
crime by 510,000 to 578,000 offenses.
    To wrap things up, the report contains no mention of the 
various antisocial conditions relating to criminal propensity 
of Federal offenders. For instance, the prevalence of 
psychopathy in correctional populations is about 25 fold higher 
than its prevalence in the general population. Psychopathy is 
one of the most pernicious and stable antisocial conditions and 
one of the most robust predictors of recidivism. Thus, any 
proposed BOP releases would include (depending on the size of 
the recommendation) the release of hundreds to thousands of 
clinically psychopathic offenders.
    Another important criminological construct is sexual 
sadism, the prevalence of which is much higher in correctional 
populations than in the general public. Even after decades of 
confinement, offenders who are sexually sadistic pose 
significant risks to the community as exemplified by current 
Federal death row inmate Alfonso Rodriguez, Jr., who was 
sentenced to death in 2003 after serving approximately a 
quarter century for prior predatory criminal convictions.
    It is also important to note that these antisocial 
conditions are not limited to homicide offenders and sex 
offenders, but are found in offenders convicted of other 
crimes, including drug-based offenses.
    Senator Whitehouse. Professor DeLisi, we are trying to keep 
our testimony to 5 minutes per witness. If you could sum up.
    Professor DeLisi. A final point, and I have some questions 
that are in the testimony if they are asked later----
    Senator Whitehouse. The testimony will be in the record.
    Professor DeLisi. Chairman Leahy indicated that the BOP 
problem is one that Congress created, but I would also add that 
the corollary benefit of that legislation was the reduction of 
crime by the increased use of confinement.
    [The prepared statement of Professor DeLisi appears as a 
submission for the record.]
    Senator Whitehouse. Thank you very much, Professor.
    Let me now introduce John Wetzel. He is, I would call him, 
the Director of Corrections for the State of Pennsylvania, but 
the nomenclature is different in Pennsylvania. He is the 
Secretary of the Pennsylvania Department of Corrections. He 
oversees all administrative functions relating to the 
Pennsylvania Department of Corrections operations, budgeting, 
personnel, and training. He began his corrections career in 
1989 as an officer at Pennsylvania's Lebanon County 
Correctional Facility. He has served as a correctional officer, 
treatment counselor, supervisor of treatment services, trainee 
academy director, and as warden of the Franklin County Jail. He 
is a member of the American Correctional Association and the 
American Jail Association and a past president of the 
Pennsylvania County Corrections Association, and for the 
record, had very nice things to say about A.T. Wall when we 
said hello at the beginning.
    Secretary Wetzel, please proceed.

STATEMENT OF JOHN E. WETZEL, SECRETARY, PENNSYLVANIA DEPARTMENT 
            OF CORRECTIONS, HARRISBURG, PENNSYLVANIA

    Mr. Wetzel. Thank you very much, and thanks for this 
opportunity to talk about Pennsylvania and the experience we 
have had in addressing many of the same problems you all face 
in the Federal system.
    Specifically, when Governor Tom Corbett was elected, 
Governor Corbett was the Attorney General, and before that he 
was a Federal prosecutor. So he has a very unique perspective, 
and he has had really a firsthand view of the corrections 
system. And what he saw over the 24 years before we took over 
was an average growth in the Pennsylvania Department of 
Corrections of 1,500 inmates a month. So when we took over 
nearly 3 years ago, we had 51,000 inmates, and that was a 
consistent growth over both Republican and Democratic 
administrations. And the one charge that he gave me when we 
took over the Department of Corrections was not to willy nilly 
reduce population, not to willy nilly reduce spending, although 
both of those things were a priority. The main priority was to 
improve outcomes and really improve our corrections system and 
take the perspective that we need to get a better return on our 
investment for what we are spending in corrections.
    How did we do that? The first thing we did is we applied 
for and received a grant to go through the justice reinvestment 
process, and we partnered with the Council of State Governments 
and went through a process that quite specifically was data 
driven. And Governor Corbett is a hard sell and takes a 
perspective of many of the folks on the panel in that we are 
very concerned, the bottom line for us is always going to be 
crime rate and public safety. And so the process had to be data 
driven.
    So we gathered data through this process, and the most 
important part of this process is that it was a process that 
was participatory and had all Members and all stakeholders as 
part of the group that looked at the policy options.
    So we gathered the data. We looked at what the population 
drivers were, and then we identified policy options looking 
nationally and internationally at policy options that seemed to 
work for other jurisdictions. Then we built consensus, and this 
is the key part of this process where we had, you know, the 
ACLU and the conservative think tank sitting there having a 
discussion and coming to agreements on how we can get better 
outcomes. And some of the focus really needs to be on what the 
root cause of the crime is.
    So it is very easy in this field to paint with broad 
brushes and say, well, we do not want to open the back door and 
let a bunch of people run out because that is going to have a 
negative effect on public safety. We all agree with that.
    But what we also all agree with is what we want out of our 
criminal justice system is that when someone becomes criminally 
involved, when they come out the back end of our system, what 
we want them to be is less likely to become criminally involved 
again. We can all agree with that. And the reality is there is 
enough research out there that tells us that when we make good 
decisions from the front end of the system as far as who needs 
to be incarcerated, who we can deal with in other manners, and 
more specifically what the root causes of the crime is. So 
violent offenders, murderers, rapists are different, and we 
cannot paint with the same brush as someone who the root cause 
of their crime is addiction.
    So it does not matter how long we lock an addict up. If we 
do not address the addiction, they are going to come out and 
they are not going to be less likely to commit another crime. 
So we took that approach. We got consensus on policy options 
that were legislative, and in 6 months from the first meeting 
until the legislation was passed, that passed unanimously in 
both the House and the Senate, which was pretty miraculous 
itself in Pennsylvania, we came up with policy options. And 
what those policy options resulted in is that under our 2\1/2\ 
years we have averaged a decline of 70 inmates a year out of 
51,000. Not a huge decline, but when you look at consistent 
1,500 inmate growth a year, we have eliminated that. We have 
been able to close a couple prisons, and we have been able to, 
more importantly, get more people into programming. And that 
has really been the key.
    So our policy options start at the front end, identify 
groups who--a small group of offenders who were not appropriate 
to ever come to a State prison. Then we looked at funding risk-
based sentencing, so the Sentencing Commission in Pennsylvania 
is building a sentencing tool so the judge has risk 
information, not just a pre-sentence investigation but risk. 
What is the risk of future offense for this offender? And that 
factored into the sentencing.
    Then we looked with the Department of Corrections at areas 
we just were not doing good. So waiting lists for programs, how 
can we better deliver programs? And part of that was making 
sure we are only putting people in programs who need the 
programs, so making sure we are assessing.
    Then the back end of our system we put a lot of focus on. 
Our community corrections system, we spent $110 million. When 
we measured it by recidivism, we saw that 95 percent of those 
programs were not effective. So we restructured those programs. 
We looked at who we put in it. And, more importantly, we 
decided to put a performance measure on the contracts. So the 
contractors are paid based on their ability to impact 
recidivism. This process was a good process, and at the same 
time, our crime rate went down. We have less people coming in, 
more people getting out, and the crime rate in Pennsylvania 
continues to go down.
    Thank you.
    [The prepared statement of Mr. Wetzel appears as a 
submission for the record.]
    Senator Whitehouse. That is a terrific story, Secretary. 
Thank you very much.
    Our next witness is Representative John Tilley, who 
represents the 8th District of Kentucky in the Kentucky General 
Assembly. He has served in the Kentucky General Assembly since 
January 2007, and he is the Chair of the House Judiciary 
Committee, where he has been the Chair since 2009. In that 
role, he worked with other State leaders to form a bipartisan, 
multi-branch task force with the goal of enhancing public 
safety, controlling corrections costs, and decreasing 
recidivism. Representative Tilley is currently the vice chair 
of the National Conference of State Legislatures' Committee on 
Justice and the Judiciary. Representative Tilley was a 
prosecutor prior to joining the legislature, serving for nearly 
6 years as Christian County's assistant county attorney, and we 
are delighted that he is here today.
    Thank you, Chairman. Please proceed.

     STATEMENT OF HON. JOHN TILLEY, CHAIR, HOUSE JUDICIARY 
 COMMITTEE, KENTUCKY HOUSE OF REPRESENTATIVES, HOPKINSVILLE,  
                            KENTUCKY

    Mr. Tilley. Thank you, Mr. Chairman. Thank you, Members, as 
well. We do have a similar story to Pennsylvania's with a 
couple of curves on that. I can say with great confidence as 
well as a former prosecutor, Members, that we can have it all 
in one sense. We can have better public safety at less cost 
with less crime and less recidivism, as you heard from the 
secretary as well. And we can be smart on crime or remaining 
tough on criminals, which is a concern of this Committee. And 
we have done that in Kentucky, and that has been an honor to 
tell you about it, but I will tell you it was no honor when the 
Pew Charitable Trust in their Public Safety Performance Project 
made us the poster child for prison growth in about 2008. They 
released a report called ``One in 100,'' which stood for the 
proposition that 1 in 100 adults in this country were behind 
bars. In Kentucky, that rate was 1 in 92.
    Just as an aside, there were 1 in 31 adults under some form 
of correctional control. That is astoundingly high. I think it 
should be to all of us.
    In Kentucky, for the decade ending in 2010, our prison 
growth rate was almost quadruple the national average. We were 
at 45 percent, and the rest of the country was hovering around 
13 percent, which is also to me an unsustainable figure.
    And so to put that even in greater context, let me tell you 
that we comprise about 4.5 percent to 5 percent of the world's 
population, but we house about 25 percent of the world's 
prisoners. So Kentucky was truly the epicenter for prison 
growth in this country.
    So all that begs the question. Did all that translate, all 
that record spending and record incarceration translate into 
better public safety? Did it translate to less crime, less 
recidivism, things that we measure our performance on? And we 
can tell you in Kentucky that it did not, as many States found 
as well. All that spending, well over a 200-percent increase in 
the previous 20 years amounted to very little. Recidivism 
remained well above the national average. Our crime rate had 
always been relatively flat. As you have heard, the crime rate 
has been dropping for some time, but we only enjoyed about a 
third of that national crime rate drop. We were about 6 percent 
over the previous decade of our study. The rest of the country 
was about 19 percent.
    And so we have remained flat as well, and I will tell you 
that our sister State to the south of us, Tennessee, we share 
the most border, their crime rate, again, we were one of the 
safer States in the country in the top ten, and they now remain 
one of the more high crime States, maybe number one, and their 
prison growth is exploding, is my understanding.
    In response, we formed a multi-branch, bipartisan task 
force, a very small task force with seven Members. I was proud 
to co-chair that. We received support from the business 
community, from the retail federations. The Kentucky Chamber of 
Commerce has taken a national leadership role in this. We 
received support from all manner of stakeholders in this 
effort. And what we found was this on that task force: that our 
prison growth rate was being driven not by crime; it was being 
driven by the number of arrests and court cases, by drug 
offenses, by rising incarceration rates for technical parole 
violators, and low-level offenders were again driving this 
population. In Kentucky, they were far more likely to go to 
prison than any other State. We found that to be a 57 percent 
to 41 percent number there. They were far more likely to go to 
prison at that rate.
    The results, some recommendations, some very comprehensive 
reform called House Bill 463. I remind you again, in a very 
bipartisan way, Mr. Chairman. It passed 96-1 in the House and 
38-0 in the Senate. The goals, again, better public safety, 
less cost, less recidivism, getting smarter on crime. How did 
we do that? I do not have a lot of time to tell you about, 
about a minute and 42 seconds I see before me. Generally, let 
me tell you--and I know I want to stick to my time. Focus our 
most expensive prison beds on the most serious offenders. Fine 
alternatives for our low-risk, non-violent drug offenders, 
which we have done. And use those things, use those savings to 
expand treatment opportunities and supervision opportunities 
for a number of our low-level offenders who were, again, 
driving that population.
    More specifically, we have strengthened probation and 
parole and pre-trial. We have seen astounding results from pre-
trial alone with not having to arrest and detain as many low-
level misdemeanants. We are actually seeing less offenses 
committed while on release so that has increased our public 
safety rate. We are seeing them show up to court at a greater 
rate, even though they are not being housed in county jails. 
Counties are saving millions and are happy with us on that 
note.
    And I will tell you we have modernized our drug code, which 
has been a focus today, obviously, from a number of voices. We 
have had presumptive probation for simple possession. We have 
deferred prosecution which is a possibility, which must be 
prosecutor approved for low-level drug offenses. We distinguish 
between trafficking and peddling, an important distinction I 
think to make. We had not previously in Kentucky done that.
    Again, these are prosecutor-driven things, and I will tell 
you that not one felony has been reclassified to a misdemeanor 
in our negotiations in trying to come up with a commonsense way 
to approach this.
    Again, we reinvest these savings, which have been in the 
millions, to increase drug treatment. I will get to how much 
more we have to that in just a minute. And I tell you, in my 
last few seconds, let me tell you we have achieved, I think, 
remarkable results, and I will fast forward to those. We now 
have fewer prisoners at lower cost. At one benchmark, just a 
few months ago, we were at 3,500 less out of a total of roughly 
now we are around 20,000 hovering. We had been at 22. We were 
supposed to be at 24. And just as the secretary said, we are 
now well below that average and about 3,500 fewer. We have less 
recidivism. For the first time in a decade, we are well below 
the national average. We have dropped 5 percentage points. And 
we have a 500-percent increase in drug abuse capacity, drug 
treatment capacity available to DOC.
    Chairman, Members of the Committee, I look forward to your 
questions, and we know we have a lot of hard work in front of 
us, but we have had tremendous results in Kentucky, and we 
invite you to learn more.
    [The prepared statement of Mr. Tilley appears as a 
submission for the record.]
    Senator Whitehouse. Thank you very much, Chairman Tilley. I 
appreciate your being here, and it is a remarkable success 
story.
    Our next witness is Nancy G. La Vigne. She is the director 
of the Justice Policy Center at the Urban Institute where she 
oversees a portfolio of research projects relating to crime, 
justice, and public safety. Prior to joining the Urban 
Institute, Dr. La Vigne was the founding director of the Crime 
Mapping Research Center at the National Institute of Justice in 
the U.S. Department of Justice. She has written on a variety of 
subjects, including criminal justice evaluation, prisoner 
reentry, crime prevention, and the spatial analysis of crime 
and criminal behavior.
    Doctor, welcome.

        STATEMENT OF NANCY G. La VIGNE, PH.D., DIRECTOR,
          JUSTICE POLICY CENTER, THE URBAN INSTITUTE,
                        WASHINGTON,  DC

    Ms. La Vigne. Thank you, Mr. Chairman. It is a pleasure to 
be here. I represent the Urban Institute. We are a nonprofit, 
nonpartisan research organization. We do not engage in 
advocacy. Rather, our mission is to bring facts and data and 
evaluative research to bear on pressing topics like the one we 
are here to discuss today. It is in that spirit that about a 
year ago we set out to chronicle the drivers of the Federal 
prison population and its growth over time and to project the 
impact of various policies that were on the table to reverse 
that growth--much in the way that we heard in the models of the 
States in Pennsylvania and Kentucky, a similar just 
reinvestment model of identifying drivers of growth.
    We also looked at the degree of overcrowding. Members of 
this Committee have already documented that. The overcrowding 
is tremendous. It is at great risk to the safety of both staff 
and inmates. But, importantly, from where we sit in the 
research we have done looking at the impact of programs 
designed to prevent recidivism, the crowding in the Federal 
system creates tremendous challenges for delivering programs 
and treatment that is so necessary to support the successful 
reintegration of Federal offenders when they exit prison.
    And what we know from our own research and research that we 
have conducted through the development of the What Works in 
Reentry Clearinghouse, which is a systematic review of only the 
most rigorous research out there on various types of prisoner 
reentry programs, and what we have learned is that there are 
programs that work. There are many programs that work across a 
whole host of types of reentry interventions, from substance 
abuse treatment to employment, education programs, vocational 
programs, mental health treatment, programs to support family 
visitation. In each one of those categories, we have identified 
one if not several of impactful programs that rigorous research 
says works.
    Indeed, even within the Federal Bureau of Prisons, the RDAP 
program has been rigorously researched and found to be 
effective as has Prison Industries. So there is a lot of 
opportunities to provide programming and help support public 
safety, but those are limited by the crowded prison environment 
in the Federal system as well as limited resources with which 
to dedicate to offer such programs.
    There are many solutions on the table. Those solutions were 
not developed by the Urban Institute. They were developed by 
various congressional staffers in partnership with the Members, 
and include legislative proposals that are sponsored by Members 
of this Committee. What we set out to do was to analyze how 
these different proposals would yield impact on both the prison 
population and on cost.
    When we looked at those projections, we were very 
conservative in our estimates. We were conservative in two 
ways:
    One, we were fiscally conservative. We chose to use the 
marginal cost of prison rather than the average cost. I can 
explain more about the importance of that later. But we thought 
it was best to be conservative, so some of our estimates are 
actually lower than others who were trying to project the 
impact of these various policies.
    Similarly, and importantly, our estimates were conservative 
with regard to how we perceived them being enacted on the 
ground, and we firmly believe that judges and the BOP will 
exercise extreme caution in discerning who should benefit from 
these programs. And as you know, most of these policies look at 
risk levels, something that was critical in the work that 
States have done. Risk assessments are very important in 
determining who really needs to be in prison and who could be 
subject to early release policies. But for that reason, also 
our estimates may be lower in terms of potential cost savings 
than you might hear from other people.
    At any rate, you know from our report that we assess a 
whole host of different types of policy changes. We know that 
reducing mandatory minimums and giving judges discretion to 
deviate from mandatory minimums could save literally billions 
of dollars. We know that earned time credits for program 
participation can not only relieve crowding in the short run, 
but it also provides incentives for inmates to take part in 
programs that are in the interest of public safety.
    We have heard examples from the States and not just those 
represented here, but we know of others--Texas, North Carolina, 
New York--that have engaged in sweeping reforms and have 
averted growth or even reduced their populations without any 
detrimental impact to their crime rates.
    So I think this is a moment of tremendous opportunity, and 
I thank you for your leadership on it.
    [The prepared statement of Ms. La Vigne appears as a 
submission for the record.]
    Senator Whitehouse. Well, we certainly hope it is the 
moment of tremendous opportunity, and I want to thank you and 
the Urban Institute for the effort and the professionalism that 
they brought into that report.
    And we will conclude now with Dr. Jeffrey Sedgwick, 
managing partner and co-founder of Keswick Advisors in 
Richmond, Virginia. He previously served as Assistant Attorney 
General for the Office of Justice Programs in the U.S. 
Department of Justice, where he oversaw activities relating to 
initiatives such as Project Safe Neighborhoods, Project Safe 
Childhood, and the Prisoner Reentry Initiative. Prior to his 
Justice Department service, Dr. Sedgwick taught for 30 years at 
the University of Massachusetts, Amherst, and he is welcome 
here today.
    Please proceed, Professor.

 STATEMENT OF JEFFREY SEDGWICK, PH.D., MANAGING PARTNER AND CO-
         FOUNDER, KESWICK ADVISORS, RICHMOND, VIRGINIA

    Mr. Sedgwick. Thank you, Chairman Whitehouse.
    In its draft report, ``Stemming the Tide: Strategies to 
Reduce the Growth and Cut the Cost of the Federal Prison 
System,'' the Urban Institute observes that, ``The Federal 
prison population has escalated from under 25,000 inmates in 
1980 to over 219,000 today.'' And it observes that, ``This 
growth has come at great expense to taxpayers and other 
important fiscal priorities.'' I could not agree more with this 
report on the problems of fiscal austerity confronting public 
safety budgets; however, I believe we need to be very careful 
not to oversimplify the tradeoffs in public safety that we need 
to consider in order to make good decisions and, as a result, 
may offer cost shifting instead of true cost savings.
    A more comprehensive view of the problem we face would cast 
the issue somewhat differently: we need to reduce not the costs 
of incarceration (or, indeed, the criminal justice system) but, 
rather, the total social costs of crime including not only 
expenditures on public safety, but also the costs of 
victimization, tangible and intangible, to the public. As we 
seek to do this, the allocation of funds among components of 
the criminal justice system should be guided by their 
demonstrated effectiveness in reducing crime not their absolute 
or relative size compared to other components of the criminal 
justice system.
    It is all too tempting in the current environment to look 
to the correctional system, both State and Federal, as sort of 
a piggy bank or a source of savings in a period of austerity. 
For example, early last year, CBS aired a segment on its weekly 
news program ``Sunday Morning,'' entitled, ``The Cost of a 
Nation of Incarceration.'' The unmistakable implication of the 
program was that the United States incarcerates too many at too 
high a cost. But just how large and costly is the prison 
population? According to the U.S. Bureau of Justice Statistics, 
1,598,780 adults were incarcerated in U.S. Federal and State 
prisons and county jails at year-end 2011--a 0.9-percent 
decrease over 2010 and the second consecutive annual decrease. 
Indeed, the imprisonment rate has declined consistently since 
2007 when there were 506 persons imprisoned per 100,000 U.S. 
residents. The rate in 2011 was comparable to the rate last 
observed in 2005, which was 492 persons per 100,000 population.
    Given that population, in a recent Vera Institute 
calculated average per inmate cost of incarceration at $31,286, 
we could estimate the total cost of incarceration nationwide in 
2011 as $50.2 billion--surely a large sum. But is it either 
disproportionate in relative terms or too large in absolute 
terms?
    In order to understand that, we would have to bring into 
the calculation: What did we get in return for that $50.2 
billion? Well, as some have testified previously and noted, and 
some of the Members of the Committee have noted, according to 
the FBI Uniform Crime Report, between 1960 and 1992, the number 
of violent crimes in the United States increased nearly 
sevenfold, from approximately 288,000 to more than 1.9 million, 
and the violent crime rate increased nearly fivefold from 160.9 
to 757.7 per 100,000 population. But then rather abruptly the 
crime rate began to decrease, and it decreased for nearly a 
decade and then plateaued until 2 years ago, when it started to 
tick up.
    Scholars who have looked at this decline and tried to give 
a reason for it or determine a reason for it--and I would cite 
Franklin Zimring as the best source on this--has noted that 
incarceration and the increase in incarceration in the United 
States played a very large role in this particular decline. In 
other words, what we got for our $50.2 billion investment was a 
decrease in crime, but value is underestimated because it does 
not include psychic costs of about $180 billion per year. So I 
leave it to you to judge whether a $50 billion investment that 
gets you a $180 billion return is a good idea or not.
    Now, this is not meant to suggest that nothing can be done 
to deal with the current fiscal problems afflicting the 
criminal justice system broadly and the Federal prison system 
in particular but, rather, to counsel caution in dealing with 
sweeping claims of cheap, readily available, and highly 
effective alternatives to Federal incarceration. Rather, we 
need to do four things.
    First, we need to understand characteristics of the Federal 
prison system, and they are quite different from the State 
prison systems.
    Second, we need to critically evaluate the effectiveness of 
interventions meant to reduce recidivism.
    Third, we need to make use of the voluminous literature on 
predicting criminality and also identifying markers of its 
onset and persistence.
    And finally, we need to hold tenaciously to the commitment 
by our actions to reduce the total social costs of crime and 
eschew the practice of merely getting those costs off our books 
by shifting them to others.
    [The prepared statement of Mr. Sedgwick appears as a 
submission for the record.]
    Senator Whitehouse. Thank you very much, Dr. Sedgwick. I 
appreciate you all being here.
    Let me start with Secretary Wetzel. You are an observer 
from the outside of the Federal Bureau of Prisons. Corrections 
is your lifelong profession. You have been very successful in 
Pennsylvania, and you are showing not only bipartisanship but 
unanimity and then success in the reform effort.
    What would you take out of Pennsylvania's experience and 
apply as lessons that would be helpful for the Federal Bureau 
of Prisons? Are there critical differences that we need to 
acknowledge? What are they? Are there similarities? Where are 
they? What have been your successes that you think will apply 
most readily to your Federal colleagues?
    Mr. Wetzel. I think from a process standpoint we were able 
to have people check their ``R'' or ``D'' at the door and 
become part of the process, and we set a goal and acknowledged 
a goal and put all the partisan stuff aside. So I think that is 
first and foremost.
    Understand that we all wanted the same thing. We all want 
good outcomes.
    And then I think really understanding the dynamics of the 
population. Certainly the Federal population is, arguably, 
different than a State population, but I think it is very 
important to really accurately identify and then build 
consensus at what group we are comfortable dealing with in 
another manner.
    And then specifically, as we start splitting these 
different groups out, then look at how we are likely to get the 
best outcome. And, you know, you are not going to bat a 
thousand on this, but where are we likely to get the best 
outcome? The one thing that across the board we had consensus 
on is that we were not pleased with the outcomes we were 
getting from our current approach. So business as usual was not 
going to work, and it was not acceptable. And we came to that 
consensus early on, that nobody could make the argument that we 
were happy with the return on the investment we were getting 
for corrections.
    By the same token, we certainly did not want to open up the 
back door and have an increase in crime because we are trying 
to do what is expedient. That was not the approach at all. But, 
you know, I think if your focus is on how we are likely to 
reduce crime and not necessarily focus on the dollars--we did 
not necessarily focus on the dollars. We focused on how we were 
going to get better outcomes, and a by-product of that is a 
reduction in population. And it was more of a natural by-
product than the goal is to--and I think if you take that 
approach and not say our goal is to reduce spending by X amount 
but our goal is to get better outcomes and identify folks who 
we can deal with in another manner that will be more effective 
and less costly, that is really--and if you keep that as the 
focus, I think that is the best way to move forward.
    Senator Whitehouse. When you are talking about identifying 
folks, what are the sorts of categories you are looking at? Is 
it age, gender, drug history, level of incarceration, length of 
term? What are some of the groups that you picked out of the 
general population to try to improve the focus? And how did you 
define those?
    Mr. Wetzel. Yes, and we did talk about violent versus non-
violent because, as many people pointed out, you know, by the 
time someone came to the Pennsylvania Department of 
Corrections, they had an average of eight arrests. And nobody 
gets locked up for jaywalking in Harrisburg, Pennsylvania. 
Okay? So that is not why they are there. So we did not put the 
focus on that, but we put the focus on actuarial risk, and let 
us look at, again, actuarial risk tools that allow us to 
predict future crime and future recidivism, and to try to make 
to the extent possible good individual decisions and give 
judges the tools that they have all the information to make 
those individual decisions.
    Senator Whitehouse. So you were dialing it all the way back 
into the pre-sentence report for judges?
    Mr. Wetzel. Yes, well, you know, in Pennsylvania we have an 
inconsistent level of pre-sentence reports, and under the 
Rendell administration in 2008, they passed this risk-based 
sentencing tool that was supposed to be developed by the 
Sentencing Commission. However, it was not funded. And through 
our initiative, we were able to fund that so we can give judges 
actuarial information at sentencing and allow them to make 
better decisions on real information.
    Senator Whitehouse. Where did you get the actuarial 
information?
    Mr. Wetzel. Well, we had the information, and the 
Sentencing Commission is the group who is charged to take that 
information and develop a tool specifically for Pennsylvania--
--
    Senator Whitehouse. You were pulling information out of the 
tracking information on your own inmates, essentially.
    Mr. Wetzel. Yes, we have a bunch of different sources of 
information: the Sentencing Commission, the courts, the 
different criminal justice agencies. Pull all those together, 
get the information, develop a tool, test it, pilot it, and 
norm it for our population, then roll it out across the State.
    Senator Whitehouse. Got it. Okay, thanks.
    Mr. Wetzel. Thank you.
    Senator Whitehouse. Chairman Tilley, same question to you. 
Can you pick out of what Kentucky has done any particularly 
successful elements that you would commend to us as areas of 
focus?
    Mr. Tilley. I think there are a number of measures on the 
front and back end that work and are translatable to the 
Federal system. And, again, mind you, I am not expert on the 
Federal Bureau of Prisons----
    Senator Whitehouse. Understood.
    Mr. Tilley. But to me we are talking about folks who are--
--
    Senator Whitehouse. You are expert on what you did in 
Kentucky.
    Mr. Tilley. Well, I appreciate that. Some would say maybe. 
I would tell you that it seems to me, though, that being a 
former prosecutor, I saw a number of Federal cases proceeding 
and moving along to conviction, and it seems that we actually 
are doing more of the same kind of work that one might imagine. 
So I would say focusing on reentry and recidivism, first, let 
us go to the back end. We have what is called mandatory reentry 
supervision, and for those who do not achieve parole, we are 
releasing them into a very controlled environment 6 months 
prior to the expiration of their sentence, so that, as studies 
indicate, we can focus on that all-important 6 months, because, 
again, as experts tell us and as has been validated through 
science, if you catch that offender in the first 6 months of 
reentry, you can hopefully achieve a more successful reentry 
and then lower recidivism, which is the goal, and that is 
significant.
    The public demands that--again, as has been said today, it 
is roughly the same in Kentucky, about 95 percent of all our 
offenders are going to come back to a community, and in that 
community I think taxpayers and constituents deserve our best 
effort of making sure that offender does not re-offend. And so 
that is important and I think very translatable.
    There are a number of things we can do and are doing beyond 
just that. Another example, Chairman, would be intermediate and 
graduated sanctions for technical parole violators. Rather than 
sending them back--we found that we were sending them back for 
longer than their original sentence, and that was not serving 
anyone. What we found now, similar to what they are doing in 
Hawaii, in the Senator's home district, and Judge Steven Alm 
there, what he is doing is remarkable. We are mimicking that in 
Kentucky.
    Senator Whitehouse. Steve Alm and I were U.S. Attorneys 
together back in the day, so I am familiar with his work.
    Mr. Tilley. I Googled that, sir.
    [Laughter.]
    Mr. Tilley. Yes, and I have been with Steven.
    Senator Whitehouse. So your experience has been the same, 
that making parole violation responses swifter, more certain, 
more immediate, even if less impactful in terms of how long 
they take out of the probationer's life, you get a better 
result from a quicker--you can have a smaller reaction if it is 
quicker and more certain to probation violations.
    Mr. Tilley. Absolutely. At the State level, we were backing 
up on multiple violations, and there was this waiting period 
before the offender knew whether or not parole was going to--
you know, they were going to be revoked and sent back to 
prison, and so it was very ineffective. And now we are seeing 
results that are being proven effective, and hopefully we can 
mimic the success they have had in Hawaii.
    I will add one thing on the front end, the remarkable 
success and really unexpected success we have had with low-
level offenders, in particular misdemeanants that were filling 
our county jails. And, again, I still think it is translatable 
because we are using science, we are using risk assessment, as 
has been mentioned here today, to figure out who presents the 
most risk and who can be released prior to adjudication, or who 
needs to stay in potentially. And in doing so----
    Senator Whitehouse. How do you develop those assessment 
tools?
    Mr. Tilley. There is a tool called the LSCMI, and, again, 
it is something that is developed and used and chosen not by 
the legislature--that would be a mistake to have us choose that 
science, I think, but the court system has chosen it, and our 
pre-trial system--in Kentucky we have, like DC, one of the only 
unified, maybe the only true unified pre-trial system in the 
country, which means it is State run, State driven, so we can 
do that. And what we have seen is an increased public safety 
rate. They are committing fewer offenses on release. They are 
showing up to court at a greater rate. And we are actually 
saving our counties, who pay for this, prior to adjudication 
pay for incarceration, saving them millions. And I think that 
is also translatable as so many offenders await trial. And it 
also preserves the presumption of innocence until proven 
guilty, and I think that is important, unless there is an 
overriding reason that a judge may see in his or her 
discretion, which that is in our bill, to detain an offender. 
And that is important as well.
    Senator Whitehouse. Obviously as a State representative and 
as the Chairman of your State's House Judiciary Committee, you 
have responsibilities to a wide array of stakeholders and 
constituents and parts of your community. I can remember going 
around Rhode Island with Director Wall with a map that showed 
where people went when they left the ACI, adult correctional 
institution, and went back into the community. And I think we 
did it by zip code, and there were some zip codes where reentry 
had virtually no impact--I mean virtually nobody returned to 
those communities--and there were other communities that were 
really receiving an avalanche of people coming out of the 
prison system.
    And so when you talk about reentry, did you consider not 
just reentry from the individual offender's point of view and 
trying to make them more successful at reentry and to reduce 
their recidivism, but also what it means to the surrounding 
community, particularly the ones that are very, very heavily 
impacted by high returns from the prison population?
    Mr. Tilley. Absolutely. In fact, we talked a lot about what 
has been referred to as ``community supervision.'' You know, 
``community corrections'' does not play quite as well to the 
ear, but ``community supervision'' in the sense that you want 
to direct that offender closer to their community and help them 
reintegrate, because as we found, when you modify behavior in 
one setting, for instance, the prison, and they return to their 
home, they immediately maybe return to that behavior without, 
you know, certain controls and certain behavior modification 
strategies in place.
    And so, yes, we did focus on that, and we do have that kind 
of community supervision in place in our bill. It runs all 
through our bill. And what we are trying to do is redirect some 
of the savings, again, to those communities so that we are not 
having to find new dollars to pay for this increase in 
community supervision. But it is clearly less expensive, and we 
can monitor in so many ways. With our reentry supervision, you 
know, we have several minimum conditions. We have over ten of 
those minimum conditions. And with technology we can monitor in 
so many ways. And it is much less expensive and more effective 
than what it costs in Kentucky, which is roughly $21,700 per 
year to incarcerate a State inmate. And so we are not that far 
off from the number that has been thrown out here today.
    And so when you have this substantial savings and a 
decrease in recidivism and this successful reentry, I think 
your communities begin to buy in as well, and I know mine has.
    Senator Whitehouse. I forgot to ask Secretary Wetzel, what 
is your experience of the effects of overcrowding in 
Pennsylvania's prisons, the ones that you supervise and manage?
    Mr. Wetzel. We are at about 109 percent of capacity. I 
think that the challenge really becomes the decisions on the 
ground, the decisions with who you put in a cell together. So I 
think I am guessing that if you looked at the numbers as we 
became more and more crowded, I am not sure that the overall 
number of misconducts would skyrocket, but I would guess that 
the severity and some of the in-cell violence would--because at 
the same time as crowding occurred, we got better at our 
practices. We got more technology, more cameras. But those in-
cell decisions, and then I think the second area that really 
gets impacted by crowding would be segregation. And 
historically, without crowding you rarely double segregation 
cells when, you know--we are like Motel 6. The light is always 
on. So you have got to find someplace to put somebody. So 
sometimes you make some decisions in putting people together 
that you would rather not have to make as a specific result of 
crowding.
    Senator Whitehouse. But it is your experience as a 
practitioner that, other things being equal, higher 
overcrowding will have a tendency to increase violence and risk 
within the population?
    Mr. Wetzel. Absolutely, especially if the staffing does not 
increase at the same scope as the inmates.
    Senator Whitehouse. So at a minimum, it would require 
additional costs.
    Mr. Wetzel. Correct.
    Senator Whitehouse. Dr. La Vigne, any suggestions for us 
that you would highlight in your report that you think would 
have particular effect for the Bureau of Prisons?
    Ms. La Vigne. Well, as I already stated, the proposals in 
our report are not the Urban Institute's proposals, so what we 
set out to do is to project the impact of these various 
proposals on populations and costs.
    Senator Whitehouse. Which ones would you highlight for us 
for the Federal Bureau of Prisons?
    Ms. La Vigne. I will highlight any number of them that you 
are interested in. The ones represented in the Smarter 
Sentencing Act, for example, reduces mandatory minimums in 
three ways. It cuts the mandatory minimums for certain types of 
drug offenders virtually in half, and that alone we predict 
could reduce overcrowding by 20 percent in 10 years' time and 
save over $2 billion. It also reduces mandatory minimums by 
extending the safety valve to Criminal History 2 categories. So 
that gives more judicial discretion to deviate from mandatory 
minimums.
    But as I referenced in my formal statement, there is a lot 
of restrictions to our projections. We do not assume that this 
means that everybody with a criminal history Category 2 is 
going to be subject to reduced sentences. There is a lot of 
judicial discretion involved, and our own assumptions assume 
that a lot of offenders will not be subject to that because of 
their risk levels and their criminal history.
    Regardless, we find that that alone would reduce 
overcrowding by 46 percent in 10 years. It would save $544 
million. And then there is also the Fair Sentencing Act crack 
retroactivity, which would also save a tremendous volume to the 
tune of $229 million. And even that reflects a conservative 
estimate on our part. We actually assume that 10 percent of 
those who could be subject to the crack retroactivity in the 
Fair Sentencing Act proposal would not because they pose too 
high a risk to society based on their in-prison behavior.
    Senator Whitehouse. Thank you very much.
    Dr. Sedgwick, as I understand your testimony, if I could 
restate it in a single sentence, it would be that you are 
warning us against either sweeping or overbroad measures that 
might create a public safety cost outside the prison system 
that more than offsets any savings within the prison system. 
But you accept that if this is done in the smart way and in the 
right way, there is, in fact, opportunity here to both improve 
public safety and lower corrections costs.
    Mr. Sedgwick. I think you summarized it beautifully. One of 
the bugaboos that I have is that we very often talk about these 
complex issues and treat offenders either as generic, like they 
are all the same, or we treat them as dichotomous. We will say, 
well, there are the violent ones and the non-violent ones. And 
if you know the research on, for example, career criminals and 
criminal histories and specialization, one of the things that 
you realize is, yes, there is a subset of the offender 
population that are purely property offenders and never commit 
a violent offense. But among violent offenders they have a mix 
of property offenses and violent offenses in their history, as 
Professor DeLisi mentioned, and so you cannot just look at what 
is the offense that this particular offender is in for and make 
a judgment about their particular risk. We need to be much more 
granular and much more careful about this.
    Senator Whitehouse. Let me ask Representative Tilley and 
Secretary Wetzel, are you comfortable that the assessment tools 
that you have used in Kentucky and Pennsylvania meet that 
standard and are sensitive to Dr. Sedgwick's concerns?
    Mr. Wetzel. Yes.
    Senator Whitehouse. So it is doable.
    Mr. Tilley. I would concur.
    Senator Whitehouse. Okay. Very good.
    I will ask unanimous consent, which I will achieve since I 
am the last one here----
    [Laughter.]
    Senator Whitehouse [continuing]. That two articles be added 
to the record. One is a New York Times article or opinion 
piece, ``For lesser crimes, rethinking life behind bars,'' by 
John Tierney. The other is ``Rhode Island halts growth in the 
inmate population while increasing public safety,'' by our 
corrections director, A.T. Wall.
    [The articles appear as submissions for the record.]
    Senator Whitehouse. The record of this hearing will remain 
open for one additional week for any further questions or 
testimony that anybody wishes to offer.
    Let me once again thank each of the witnesses for coming 
and lending your expertise, and in the case of Chairman Tilley 
and Secretary Wetzel, your very long and well-earned personal 
experience in this area. I think that what you have done 
politically to make these changes happen in your home States is 
very impressive. I am sorry you missed by one in getting 
unanimity the way Pennsylvania did, but I got to tell you, 
unanimity by all but one vote is pretty darn impressive. So 
obviously a lot of careful work went into the kind of product 
that can both be unanimous and impactful. You can do unanimous 
all day long if you end up with no results. But doing something 
that really makes a change and getting the kind of political 
support at home that makes it unanimous in the legislature is a 
very significant achievement. So I am delighted that you both 
had the opportunity and the ability to come here today, and I 
thank you very much for being here. I thank all the witnesses. 
Everyone's testimony was extremely helpful. To the Urban 
Institute, we look forward to continuing to work with you, and 
thank you for the report.
    And, with that, we are adjourned.
    [Whereupon, at 12:04 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
